HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With Pamela
Gilyard Catering Services," (A-03-06-00516)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Centers
Award Process for a Contract With Pamela Gilyard Catering Services," (A-03-06-00516)
April 6, 2007
Complete Text of Report is available in PDF format (88 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by the Program Support Center (PSC) and other components of the Department of Health and Human Services (HHS) in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR) provide, among other things, that HHS agencies award each contract to a responsible party and document compliance with requirements for full and open competition and the determination that the price was fair and reasonable.
As part of HHS’s hurricane relief operations, PSC awarded a contract to Pamela Gilyard Catering Services (Gilyard Catering) to furnish meals for HHS staff engaged in hurricane relief efforts. Our objective was to determine whether PSC complied with FAR and HHSAR requirements during the award process involving Gilyard Catering. PSC complied with the requirements.